No.

IN THE
SUPREME COURT OF THE UNITED STATES
GUY HARVEY SPRUHAN, IV,
__________ - PETITIONER

vs.
UNITED STATES OF AMERICA
__________ - RESPONDENT(S)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in Jonna pauperis.
Please check the appropriate boxes:
[i] Petitioner has previously been granted leave to proceed in Jonna pauperis in
the following court(s):
United States Court of Appeals for the Fourth Circuit

United States District Court for the Western District of Virginia

0 Petitioner has not previously been granted leave to proceed in Jonna

pauperis in any other court.

0 Petitioner's affidavit or declaration in support of this motion is attached hereto.
0 Petitioner's affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
D The appointment was made under the following provision of law: ____
or
�, copy of the order of appointment is appended.

(Signature)

